2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

fT

C@OCKLE

E-Mail Address:
contact@cocklelegalbriefs.com

Legal Briefs

Est. 1923
Web Site
www.cocklelegalbriefs.com
No. 19-431
LITTLE SISTERS OF THE POOR SAINTS PETER AND PAUL
HOME,
Petitioner,

v.
COMMONWEALTH OF PENNSYLVANIA AND

STATE OF NEW JERSEY,
Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of December, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties
required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were

plainly addressed to the following:

To be filed for:
GURBIR S. GREWAL
Attorney General
State of New Jersey
GLENN J. MORAMARCO
Assistant Attorney General
ERIC L. APAR
Deputy Attorney General
Office of Attorney General
25 Market Street
P.O. Box 112
Trenton, NJ 08625
(609) 376-3235

SEE ATTACHED

JOSH SHAPIRO

Attorney General
Commonwealth of Pennsylvania
MICHAEL J. FISCHER*
Chief Deputy Attorney General
AIMEE D. THOMSON
JACOB B. BOYER

Deputy Attorneys General
Office of Attorney General
1600 Arch Street, Suite 300
Philadelphia, PA 19103

(215) 560-2171
mfischer@attorneygeneral.gov
* Counsel of Record

Subscribed and sworn to before me this 9th day of December, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska

My Commission Expires Nov 24, 2020

 

hes Clit» Oudoawh, Ql

Notary Public Affiant 39153

 
SERVICE LIST

Little Sisters of the Poor Saints Peter and Paul Home v. Pennsylvania, et al., No. 19-431

Mark Leonard Rienzi

Counsel of Record

The Becket Fund for Religious Liberty

1200 New Hampshire Ave., NW

Suite 700

Washington, DC 20036

(202) 349-7208

mrienzi@becketlaw.org

Counsel for Petitioner The Little Sisters of the Poor Saints Peter and Paul Home

Noel J. Francisco

Counsel of Record

Solicitor General of the United States

Room 5616

United States Department of Justice

950 Pennsylvania Avenue, NW

Washington, DC 20530-0001

(202) 514-2217

SupremeCtBriefs@USDOJ.gov

Counsel for Respondents Donald J. Trump, President of the United States, et al.
